No. ________
OCTOBER TERM, 2020
IN THE SUPREME COURT OF THE UNITED STATES
Joseph Weldon Smith, Petitioner,
v.
Renee Baker, Warden, et al., Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PROOF OF SERVICE
CAPITAL CASE

RENE L. VALLADARES
Federal Public Defender of Nevada
DAVID ANTHONY*
BRAD D. LEVENSON
ELLESSE HENDERSON
ROBERT FITZGERALD
Assistant Federal Public Defenders
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-5819 (Fax)

* Counsel of Record

PROOF OF SERVICE
I, David Anthony, an attorney who is authorized to file a Petition for Writ of
Certiorari on behalf of Petitioner Joseph Weldon Smith, hereby certify that on this
19th day of May, 2020, a copy of Petitioner’s Motion for Leave to Proceed In Forma

Pauperis, Petition for Writ of Certiorari and Petitioner’s Appendix was served by
United States mail, first-class postage prepaid, to: Jeffrey M. Conner, Deputy
Solicitor General, State of Nevada, Office of the Attorney General, 100 N. Carson
St., Carson City, Nevada 89701. All parties required to be served have been served.
DATED this 19th day of May, 2021.
Respectfully submitted,
Rene Valladares
Federal Public Defender of Nevada

s/ David Anthony

DAVID ANTHONY

Counsel of Record

Assistant Federal Public Defender
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
David_Anthony@fd.org
Counsel for Petitioner

2

